'*)

IN THE
SUPREME COURT OF THE UNITED STATES

ERIC WILLIAM POIRIER - PETITIONER
VS.

RANDALL R. HEPP - Warden,
UNITED STATES OF AMERICA - RESPONDENT(s).

PROOF OF SERVICE
I, Eric William Poirier, do swear that on the date below
as required by Supreme Court Rule 29 I have served the Habeas
Corpus 28 U.S.C. ยง 2254(a) and Appendix on the Respondent's
Attorney who is : Solicitor General of the
United States Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
This was done by placing in the prison mailbox, with postage
prepaid.
I declare under penalty of perjury the foregoing is true and correct.
Executed on August /3 , 2021

Additional material
from this filing is
available in the
Clerk's Office.

